®

Secured

CREDIT CARD AGREEMENT
255 N. Lone Hill Ave. San Dimas, CA 91773

NOTICE: See reverse side for important information regarding your rights to dispute billing errors.
1. Using the Account. If your application for a VISA Secured account is approved,
the Christian Community Credit Union will establish a line of credit for you and
notify you of its amount when the card is sent to you. You agree not to let your
account balance exceed your approved credit limit. Each payment you make
on the account will restore your credit limit by the amount of the payment which
is applied to the principal amount of purchases and cash advances. You may
request an increase in your credit limit only by written application submitted to
the Credit Union. The Credit Union has the right to reduce or terminate your
credit limit at any time.
2. Using the Card. You may use your card to purchase goods and services
in person, online, and by mail or telephone from merchants and others who
accept VISA credit cards. In addition, you may obtain cash advances up to
$1,000 of your approved and available credit limit from the Credit Union, from
other financial institutions or select merchants participating in the VISA program
and from automated teller machines (ATMs), such as VISA ATM Network, that
provide access to the VISA system. (Not all merchants or ATMs provide such
access.) You will need to use your Personal Identification Number (PIN) to
obtain a cash advance from an ATM.
3. Illegal Use of VISA Credit Card. You agree that your VISA Credit Card Account
will not be used to make or facilitate any transaction(s) that are or might be
construed to be illegal pursuant to applicable law, rule or ordinance, including
but not limited to gambling. Said use, including any such authorized use, will
constitute an event of default under this Agreement. You agree that the Credit
Union has no liability, responsibility or culpability whatsoever for any such
use by you or any authorized user(s). You agree that you are responsible for
repayment of any and all debts incurred for these transactions. You further
agree to indemnify and hold the Credit Union harmless from any suits, liability,
damages or adverse action of any kind that results directly or indirectly from
such illegal use.
4. Responsibility. You agree to pay all charges (purchases and cash advances)
to your account made by you or anyone who you authorize to use your account.
You also agree to pay all other charges added to your account, pursuant to
Paragraph 7.Your obligation to pay the amount owed on your account continues
until paid in full even though an agreement, divorce decree or other court
judgment to which the Credit Union is not a party may direct someone else
to pay the account balance. If more than one person signs this Agreement,
each is individually responsible for all amounts owed on the account and all
are jointly responsible for all amounts owed. This means the Credit Union can
enforce this Agreement against any of you individually or all of you collectively.
5. Finance Charges. In order to avoid a FINANCE CHARGE on purchases made
since your last statement date, you must pay the Total New Balance shown
on your statement within 25 days of the statement closing date. Otherwise
the FINANCE CHARGE on purchases is calculated from the beginning of the
next statement period on previously billed but unpaid purchases and on new
purchases from the date they are posted to your account. Cash advances and
balance transfers are always subject to a FINANCE CHARGE from the date they
are posted to your account.
We figure the FINANCE CHARGE on your account by applying the periodic
rate to the ‘‘average daily balance’’ of your account. To get the ‘‘average daily
balance’’ we take the beginning balance of your account each day, add any
new purchases, and cash advances, and subtract any unpaid other finance
charges and any payments or credits. This gives us the daily balance. Then,
we add up all the daily balances for the billing cycle and divide the total by the
number of days in the billing cycle. This gives us the ‘‘average daily balance.”

Secured VISA Rewards Account
Your Secured VISA Rewards Account will be subject to a FINANCE CHARGE (interest)
at an ANNUAL PERCENTAGE RATE and a corresponding Monthly Periodic Rate
which will be a standard variable (floating) rate based upon an index plus a
margin. The margin applicable to your account will be determined by your
creditworthiness.The ANNUAL PERCENTAGE RATE and the corresponding Monthly
Periodic Rate will apply to purchases, cash advances and balance transfers.
Index
The Index is Prime Rate (“Index”). Information about this Index is published
in the Money Rates Table of the Wall Street Journal.
Rate Changes
The ANNUAL PERCENTAGE RATE may change on the first (1st) day of each
billing cycle. These are known as rate change dates. The Index value used for
a given billing cycle will be the value published on first (1st) business day before
©2007-2016 Simply Legal - All Rights Reserved

the change date or the most recently published value published before the
change date. If more than one rate is published, the Index will be the highest
of the rates published. If the Index ceases to be published, the Credit Union
will choose a new Index and give you notice of its choice.
Determination of Annual Percentage Rate
The Credit Union will add a margin ranging from 7.65% to 13.65%, depending on
your credit score, to the Index to get the ANNUAL PERCENTAGE RATE applicable
to your Account for the billing cycle. Notification of the margin for which you
have been approved will be provided on the Secured VISA Rewards Approval
Letter sent to you upon completion of the credit review and approval.
ANNUAL PERCENTAGE RATE for the billing cycle will be divided by twelve (12) to
get the corresponding Monthly Periodic Rate for the billing cycle. An increase
or decrease in the Prime Rate will lead to an increase or decrease in your
ANNUAL PERCENTAGE RATE and the corresponding Monthly Periodic Rate
applicable to your Account.
Limitations on Changes
There is no limit on the amount by which the rate changes in any one-year
period. The maximum ANNUAL PERCENTAGE RATE that can apply is 18.00%.
Annual Percentage Rate Example
Based upon a margin of 7.65% (your margin may be different depending on
your credit score) plus an Index value of 3.50%, (which was the value of the
Index on May 1, 2016), your Account would be subject to a FINANCE CHARGE
(interest) at an ANNUAL PERCENTAGE RATE of 11.15%, with a corresponding Monthly
Periodic Rate of 0.929%.
On the first (1st) day of each calendar month and on each subsequent change
date, the ANNUAL PERCENTAGE RATE and the corresponding Monthly Periodic
Rate will be calculated according to the formula described above and will be
stated on our Secured VISA Rewards Approval Letter.
6. Change in Terms; Changing or Terminating Your Account. The Credit Union
may change the terms of this Agreement, including your ANNUAL PERCENTAGE
RATE, from time to time for any reason not inconsistent with applicable law
after giving you any advance notice required by law. Your use of the card after
receiving notice of a change will indicate your agreement to the change. To
the extent the law permits, and except as otherwise indicated in the notice
to you, the change will apply to your existing account balance as well as to
future transactions. Either the Credit Union or any one of you may terminate
this Agreement at any time, but termination by you or the Credit Union will
not affect your obligation to pay the account balance plus any finance and
other charges you owe under this Agreement. The cards you receive remain
the property of the Credit Union and you must recover and surrender to the
Credit Union all cards upon request or upon termination of this Agreement
whether by you or the Credit Union.
7. Other Charges. The following Other Charges will be added to your account,
as applicable:
•
If you are a credit card member only with no other relationship with
Christian Community Credit Union, a one-time non-refundable membership
fee of $25.00 will be charged to your credit card account.
•
CASH ADVANCE FEE (FINANCE CHARGE): You will be charged a cash
advance fee of 2% of the amount advanced with a $5.00 minimum.
•
BALANCE TRANSFER FEE (FINANCE CHARGE): You will be charged
a balance transfer fee of 2% of the amount transferred with a $5.00 minimum.
•
COPIES: If you request a copy of any document, we may charge your
account $5.00 per copy requested. If your request is related to a billing error
and an error is found, we will credit any copying charges to your account.
•
LATE PAYMENT FEE: We reserve the right to charge a late payment fee
of up to $15.00 to your account each billing period that the minimum monthly
payment is not received by 15 days after due date.
•
RETURNED PAYMENT FEE: A fee of up to $25.00 will be assessed for
each card payment check that is returned to the Credit Union.
•
EXPRESS CARD/PIN ORDER: A fee of $40.00 will be assessed if you
request express delivery of your card or PIN.
•
PIN REPLACEMENT FEE: A fee of $5.00 will be assessed if your PIN
needs to be replaced.
•
MINIMUM FINANCE CHARGE: The minimum Finance Charge that may
be assessed is $1.00.

CU STORE # 7018

(CUSTOM)

Rev. 3/4/16

PTD 5/2016

•
CARD REPLACEMENT FEE: A fee of $10.00 will be assessed if your
card needs to be replaced due to damage, loss, or theft.
8. Security Interest. If you give the Credit Union a specific pledge of shares
by signing a separate pledge of shares for this account, your account will be
secured by your pledged shares.
9. Monthly Payment. Each month you must pay at least the minimum payment
shown on your statement by the Payment Due Date shown. You may, of course,
pay more frequently, pay more than the minimum payment, or pay the Total
New Balance in full. If you make extra payments or larger payments, you are
still required to make at least the minimum payment each month your account
has a balance. The minimum payment is 3% of your Total New Balance but
not less than $10.00, plus the amount of any prior minimum payments that
you have not paid. In addition, if at any time your Total New Balance exceeds
your credit limit, you must immediately pay the excess upon demand. Subject
to applicable law, your payments will be applied to what you owe the Credit
Union in any manner the Credit Union chooses.
10. Default. You will be in default if you fail to make any minimum payment or
other required payment by the date that it is due.You will be in default if you break
any promise you make under this Agreement. You will be in default if you die,
file for bankruptcy or become insolvent, that is, unable to pay your obligations
when they become due.You will be in default if you make any false or misleading
statements in any credit application or credit update. You will also be in default
if something happens that the Credit Union believes may substantially reduce
your ability to repay what you owe. When you are in default, the Credit Union
has the right to immediately terminate this Agreement and require repayment
of your outstanding account balance plus any finance and other charges you
owe under this Agreement. At the Credit Union’s discretion, any shares that
were given as security may be applied towards what you owe. To the extent
permitted by law, you will also be required to pay the Credit Union’s collection
expenses, including court costs and attorneys’ fees.
11. Liability for Unauthorized Use. If you notice the loss or theft of your credit card
or a possible unauthorized use of your card, you should write to us immediately
at: 255 N. Lone Hill Avenue, San Dimas, CA 91773, or call us at (800) 449-7728.
You will not be liable for any unauthorized use that occurs after you notify us.
You may, however, be liable for unauthorized use that occurs before your notice
to us. In any case, your liability will not exceed $50.
12. Liability for Unauthorized Use of Your Secured VISA Rewards Credit Card. If there
is an unauthorized use of your consumer VISA Credit Card or a Plus network or
Interlink transaction, and the transaction takes place on the VISA network, then
your liability will be zero ($0.00). This provision limiting your liability does not apply
to VISA Business Rewards cards or VISA Purchasing Card Transactions, ATM
cash disbursements processed on non-VISA or non-Plus networks, or non-VISA
PIN-less debit transactions. Additionally, your liability with respect to unauthorized
transactions may be greater than the above zero ($0.00) liability limit, to the extent
allowed under applicable law, if the credit union reasonably determines, based on
substantial evidence, that you were grossly negligent or fraudulent in the handling
of your account or card.

13. Credit Information. You authorize the Credit Union to investigate your credit
standing when opening or reviewing your account. You authorize the Credit
Union to disclose information regarding your account to credit bureaus and
creditors who inquire about your credit standing. Pursuant to state law, you
are hereby notified that a negative credit report reflecting on your credit record
may be submitted to a credit reporting agency if you fail to fulfill the terms of
your credit obligations.
14. Returns and Adjustments. Merchants and others who honor the card may
give credit for returns or adjustments, and they will do so by sending the Credit
Union a credit slip which will be posted to your account. If your credits and
payments exceed what you owe the Credit Union, the amount will be applied
against future purchases and cash advances. If the amount is $1 or more, it
will be refunded upon your written request or automatically after six months.
15. Foreign Transactions. Purchases and cash advances made in foreign
currencies will be billed to you in U.S. dollars. Transactions processed outside
of the United States, or in a foreign currency may be charged a foreign
transaction fee, regardless of whether there is a currency conversion associated
with the transaction. The conversion rate in dollars will be a rate selected by
VISA from a range of rates available in wholesale currency markets for the
applicable Central Processing Date, which rate may vary from the rate VISA
itself receives, or the government-mandated rate in effect for the applicable
Central Processing Date in each instance, plus a one percentage point (1.0%)
fee charged by the Issuer.
16. Merchant Disputes. The Credit Union is not responsible for the refusal of
any merchant or financial institution to honor the card. The Credit Union is
subject to claims and defenses (other than tort claims) arising out of goods or
services you purchase with the card if you have made a good faith attempt but
have been unable to obtain satisfaction from the merchant or service provider,
and (a) your purchase was made in response to an advertisement the Credit
Union sent or participated in sending to you; or (b) your purchase cost more
than $50 and was made in your state or within 100 miles of your home.
17. Effect of Agreement. This Agreement is the contract which applies to all
transactions on your account even though the sales, cash advances, credit or
other slips you sign or receive may contain different terms.
18. No Waiver. The Credit Union can delay enforcing any of its rights any number
of times without losing them.
19. Statements and Notices. You will receive a statement each month showing
transactions on your account. Statements and notices will be mailed to you at
the most recent address you have given the Credit Union. Notice sent to any
one of you will be considered notice to all. You agree to promptly notify the
Credit Union if you change your mailing address.
20. Transfer of Account. You cannot transfer or assign your account to any
other person.
21. Governing Law. This Agreement and your account shall be governed by
California law without regard to any conflict of law rules.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities
under the Fair Credit Billing Act.

WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, write to us at: Christian Community
Credit Union, 255 N. Lone Hill Avenue, San Dimas, CA 91773.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.
You must notify us of any potential error in writing. You may call us, but if you do we
are not required to investigate any potential errors and you may have to pay the
amount in question.

WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain
to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest
or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe. If you receive our explanation but still
believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.

YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have purchased with your
credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home State or within 100 miles of
your current mailing address, and the purchase price must have been more than
$50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods
or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at: Christian Community Credit Union, 255 N. Lone Hill Avenue,
San Dimas, CA 91773. While we investigate, the same rules apply to the disputed
amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think
you owe an amount and you do not pay, we may report you as delinquent.

